No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JOEL LATRENT FLETCHER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10666
Summary Calendar

FILED
June 19, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
JOEL LATRENT FLETCHER,
Defendant - Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:19-CR-6-1
Before BARKSDALE, HAYNES, and ENGELHARDT, Circuit Judges.
PER CURIAM: *
Joel Latrent Fletcher appeals his guilty-plea conviction in June 2019 for
possession of a firearm by a convicted felon, in violation of 18 U.S.C. § 922(g)(1).
He contends that, in the light of Rehaif v. United States, 139 S. Ct. 2191 (2019)
(rendered while this appeal was pending), the factual basis before the district
court was insufficient to support his guilty plea because it failed to establish
an essential element of the offense: that, prior to possessing the firearm

Pursuant to 5th Cir. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5th Cir.
R. 47.5.4.
*

No. 19-10666
charged in the indictment, Fletcher knew he had been convicted of a crime
punishable by imprisonment for a term exceeding one year.
Because Fletcher did not raise this issue in district court, review is only
for plain error (as defendant concedes). E.g., United States v. Broussard, 669
F.3d 537, 546 (5th Cir. 2012). Under that standard, Fletcher must show a
forfeited plain error (clear or obvious error, rather than one subject to
reasonable dispute) that affected his substantial rights. Puckett v. United
States, 556 U.S. 129, 135 (2009). If he makes that showing, we have the
discretion to correct such reversible plain error, but generally should do so only
if it “seriously affect[s] the fairness, integrity or public reputation of judicial
proceedings”. Id.
Before accepting a guilty plea, the district court “must determine that
there is a factual basis for the plea”. Fed. R. Crim. P. 11(b)(3). To do so, “the
district court must compare: (1) the conduct to which the defendant admits;
and (2) the elements of the offense charged in the indictment”. Broussard, 669
F.3d at 546 (citation omitted). The court must then verify “that the factual
conduct admitted by the defendant is sufficient as a matter of law to establish
a violation of the statute to which he entered his plea”. United States v. Trejo,
610 F.3d 308, 313 (5th Cir. 2010) (emphasis and citations omitted).
“In assessing factual sufficiency under the plain error standard, we may
look beyond those facts admitted by the defendant during the plea colloquy and
scan the entire record for facts supporting his conviction.”
omitted).

Id. (citation

In this regard, our court may consider, inter alia, “the factual

findings relied upon in the presentence [investigation] report[,] . . . as well as
fairly drawn inferences from the evidence presented both post-plea and at the
sentencing hearing”.

Id. at 317 (internal quotation marks and citations

omitted).

2

No. 19-10666
Although the plea documents and colloquy, standing alone, do not
establish Fletcher’s knowledge at issue, the record in its entirety shows it is at
least subject to reasonable dispute that there was a sufficient factual basis to
support finding Fletcher had such knowledge. There is, therefore, no plain
(clear or obvious) error.

See Puckett, 556 U.S. at 135; United States v.

Alvarado-Casas, 715 F.3d 945, 952 (5th Cir. 2013). In any event, given the
substantial benefit Fletcher received from his plea agreement (including
dismissal of other substantial charges), he has failed to show any error affected
his substantial rights. See Puckett, 556 U.S. at 135; Alvarado-Casas, 715 F.3d
at 954–55.
AFFIRMED.

3

APPENDIX B

Case 5:19-cr-00006-C-BQ Document 42 Filed 06/07/19

Page 1 of 4 PageID 135

Case 5:19-cr-00006-C-BQ Document 42 Filed 06/07/19

Page 2 of 4 PageID 136

Case 5:19-cr-00006-C-BQ Document 42 Filed 06/07/19

Page 3 of 4 PageID 137

Case 5:19-cr-00006-C-BQ Document 42 Filed 06/07/19

Page 4 of 4 PageID 138

